                                                         UNITED STATES 

                                    SECURITIES AND EXCHANGE COMMISSION 

                                                   WASHINGTON,        D.C. 20549 



                                                        February 24,2014
    OFFICE OF
INSPECTOR GENERAL



         Chair and Commissioners                                       Darrell E. Issa, Chairman
         U.S. Securities and Exchange Commission                       Committee on Oversight and Government
         100 F Street, NE                                                  Reform
         Washington, DC 20549                                          United States House of Representatives
                                                                       2 157 Rayburn House Office Building
         Thomas R. Carper, Chairman                                    Washington, DC 205 15
         Committee on Homeland Security and
            Governmental Affairs                                       Elijah E. Cummings
         United States Senate                                          Committee on Oversight and Government
         340 Dirksen Senate Office Building                                Reform
         Washington, DC 20510                                          United States House of Representatives
                                                                       2 157 Rayburn House Office Building
         Thomas A. Coburn
                                                                       Washington, DC 20515
         Committee on Homeland Security and
            Governmental Affairs                                       Gene L. Dodaro
         United States Senate                                          Comptroller General of the United States
         340 Dirksen Senate Office Building                            U.S. Government Accountability Office
         Washington, DC 20510                                          441 G Street, NW
                                                                       Washington, DC 20548
         Sylvia Mathews Burwell, Director
         Office of Management and Budget
         165 0 Pennsylvania A venue
         Room 252
         Washington, DC 20503


              Inspector General's Report of the U.S. Securities and Exchange Commission's Fiscal 

                     Year 2013 Compliance with the Improper Payments Information Act 

                The U.S. Securities and Exchange Commission (SEC) Office oflnspector General
         (OIG) has concluded its review of the SEC's compliance with the Improper Payments
         Information Act of2002 (IPIA; Pub . L. 107-300) for fiscal year (FY) 2013. Our review was
         conducted in accordance with the Improper Payments Elimination and Recovery Act of2010
                                   1
         (IPERA; Pub. L. 111-204) and the Office of Management and Budget (OMB) Memorandum
                  2
         M-11-16.
                We reviewed the SEC's Improper Payments Elimination and Recovery Improvement
         Act of2012 Ri sk Assessment Summary Report, dated June 16,20 13, and supporting
         documentation, as well as relevant disclosures in the SEC ' s FY 2013 Agency Financial
         Report (AFR), dated December 12,20 13. The risk assessment was performed by a contractor

         1
             On Jul y 22, 20 I0, the President signed into law IPERA, which amended IPIA .
         2
          OMB Memorandum M-11-16, " Issuance of Revised Parts I and II to Appendix C ofOMB Circular A-1 23,"
         April14 , 20 11.
in coordination with the SEC's Office of Financial Management. The programs included in
the assessment were vendor payments (including credit card payments), disgorgements and
penalty distributions, and returned deposits of registration filing fees. Travel payments were
removed from the SEC's FY 2013 improper payments testing because of a decrease in their
susceptibility to significant improper payments.

        For FY 2013, IPIA defines "significant improper payments" as gross annual improper
payments in the program(s) under review exceeding (1) both 1.5 percent of program outlays
and $10 million of all program payments made during the fiscal year, or (2) $100 million.
The SEC's FY 2013 risk assessment included consideration of certain risk factors that are
likely to contribute to a susceptibility to significant improper payments. The assessment also
involved transaction testing on a sample basis ofpayments made during the first 6 months of
FY 2013. The assessment determined that none of the SEC's programs and activities are
susceptible to significant improper payments. In addition, the SEC's FY 2013 AFR states the
agency determined that implementing a payment recapture audit program is not cost effective;
nonetheless, the agency strives to recover overpayments identified through other sources. On
the basis of our review of this information, we have determined that the SEC is in compliance
with IPIA for FY 2013.

       If you have questions or require additional information, please contact Rebecca
Sharek, Deputy Inspector General for Audits, Evaluations, and Special Projects at
sharekr@sec.gov or (202) 551-6083.


                                             Sincerely,


                                            ddV/rW-­
                                             Carl W. Hoecker
                                             Inspector General
                                             Office of Inspector General
                                             U.S. Securities and Exchange Commission


cc: 	   Jeffery Heslop, Chief Operating Officer, Office of the Chief of Operations
        Kenneth A. Johnson, Chief Financial Officer, Office of Financial Management




                                              2

